 

IN THE

Supreme Court of the United States

JAMES JOSEPH GARNER,

Petitioner,
v.

COLORADO,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Colorado

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,257 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2019.

 

Wilson-Epes Printing Co., Inc.
